No. 19A___________
In the
SUPREME COURT OF THE UNITED STATES

VALERIA CALAFIORE HEALY1
Applicant,
v.
Anna Gatti, IQSystem Inc., IQSystem LLC, Almaviva S.P.A.,
Almawave S.R.L., and Almawave USA Inc.

APPLICATION FOR EXTENSION OF TIME
WITHIN WHICH TO FILE PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

Pursuant to Rules 13.5 and 30.2 of this Court, Applicant Valeria Calafiore
Healy (“Counsel”) respectfully requests a 60-day extension of time, up to and
including July 8, 2019, within which to file her petition for a writ of certiorari to
review the judgment of the United States Court of Appeals for the Ninth Circuit,
entered on November 9, 2018, en banc rehearing denied on February 7, 2019.
App., infra, 1a-9a. The court of appeals summarily affirmed the sanctions issued
against Counsel in the case she prosecuted for her client, Loop AI Labs Inc.
(“Loop-AI”), in the United States District Court for the Northern District of
California, Case No. 4:15-cv-798. Id. Unless extended, Counsel’s time for filing a
petition for a writ of certiorari will expire on May 8, 2019. Counsel would invoke
this Court’s jurisdiction under 28 U.S.C. § 1254(1).
Counsel’s Appeal in the Ninth Circuit was filed at case number 17-15608 and consolidated with
the appeal of her client, Loop AI Labs, Inc., at case number 17-15621.
1

Counsel respectfully requests this extension of time for the following
reasons:
1.

This case concerns punitive inherent power sanctions issued by the

district court sua sponte against Counsel without any prior notice or opportunity
to be heard, and without any finding of bad faith. The sanctions (1) revoked
Counsel’s pro hac vice admission in the Northern District of California, (2)
imposed a lifetime bar on Counsel appearing before the presiding district judge,
and (3) concluded that Counsel violated specific rules of ethical conduct.2 App.,
infra, 34a-40a.
2.

In Goodyear Tire & Rubber Co. v. Haeger, 581 U.S. ___, 137 S. Ct.

1178 (2017), this Court held that punitive sanctions cannot be imposed without
heightened process guarantees. Goodyear, 138 S. Ct. at 1186. Basic due process
jurisprudence also requires a judge who wishes to sanction a lawyer sua sponte to
first provide the lawyer notice and an opportunity to be heard.3 In this case
Counsel received no notice or opportunity to be heard. Compare App., infra, 41a43a and 10a-40a.
Counsel was admitted pro hac vice on February 25, 2015 in connection
with her representation of Loop-AI. Counsel was Loop-AI’s lead counsel for the
duration of the action, until the case was dismissed as a sanction in an order

2 When a court reaches “a legal conclusion” that a lawyer has violated “a specific rule of ethical
conduct, . . . such a finding, per se, constitutes a sanction.” United States v. Tillman, 756 F.3d
1144, 1150 (9th Cir. 2014).
3 E.g., In re Ruffalo, 390 U.S. 544 (1968); Martens v. Thomann, 273 F.3d 159, 176–77 (2d Cir.
2001).

2

entered on March 9, 2017, titled “Terminating Sanctions Order” (“sanctions
order”).
The order to show cause preceding the sanctions did not provide Counsel with
any notice that the court was considering imposing sanctions on her. App., infra,
41a-43a. In addition to denying Counsel notice and an opportunity to be heard
before issuing its sanctions order, the court denied Counsel any opportunity to
respond after the sanctions order was issued, by declaring in the sanctions order
that the court would not entertain any motion for reconsideration and that the
case was closed. Id. at 40a.
The court of appeals summarily affirmed the sanctions against Counsel on
the basis that the attorney briefed her personal defenses in Loop-AI’s response to
the show-cause order and suggested that, in any event, nothing else Counsel
might have presented would have made a difference. Id. at 8a. These findings
are unsupported by anything in the record. Counsel didn’t, and couldn’t, brief
personal defenses to charges of which she was wholly unaware.4 The show-cause
order contained none of the factual allegations and legal arguments against
Counsel that the court subsequently laid out in its sanctions order. And the court
of appeals had no way of knowing how the charges “would have been met had

4 Counsel had no way to decipher the district court’s cryptic show-cause order even as it applied to
her client Loop-AI. Counsel requested more information and an evidentiary hearing. The district
court ignored both requests and claimed instead that “[e]verything about counsel’s response to
the [show-cause order] reinforce[d] why terminating sanctions [were] necessary.” App., infra, 32a
(emphasis added).

3

[they] been originally included” by the district court in the OSC. In re Ruffalo,
390 U.S. at 551.
The court of appeals’ reasoning renders procedural due process meaningless
because it would give the lower courts free rein to dispense with due process
protections at will. It is also contrary to the Ninth Circuit’s own law and the law
of other Circuits, which all require strict compliance with procedural due process.
United States v. Tillman, 756 F.3d 1144, 1150 (9th Cir. 2014); In re Corrinet, 645
F.3d 1141 (9th Cir. 2011); Cole v. United States Dist. Court for the Dist. Of Idaho,
366 F.3d 813 (9th Cir. 2004); Weissman v. Quail Lodge, Inc., 179 F.3d 1194 (9th
Cir. 1999); Martens, 273 F.3d at 176–77; Sec. Nat’l Bank v. Jones Day, 800 F.3d
936, 944–45 (8th Cir. 2015) (requiring courts to “give particularized notice of the
nature of the sanction it had in mind so that counsel would have a meaningful
opportunity to respond”); Saldana v. Kmart Corp., 260 F.3d 228 (3d Cir. 2001)
(holding that counsel was “entitled to notice of the legal rule on which the
sanctions would be based, the reasons for the sanctions, and the form of the
potential sanctions”).
In addition to being issued without affording any procedural due process
protections, the sua sponte sanctions against Counsel were impermissibly
punitive. This is readily demonstrated by the fact that the same sanctions order
in which Counsel was sanctioned also ended the case. App., infra, 8a. Revoking
Counsel’s pro hac vice admission in a case the court had just ended couldn’t
possibly be a remedial sanction, and therefore necessarily was punitive. The

4

other sanctions imposed on Counsel (a bar on future appearances and findings of
ethical violations) also lacked any remedial function and served solely to punish
Counsel. Goodyear requires courts that wish to issue such punitive sanctions
under their inherent power to (1) make a finding of bad faith, and (2) afford
heightened process—specifically, the “procedural guarantees applicable in
criminal cases.” Goodyear, 137 S. Ct. at 1186. These requirements were violated.
The court didn’t make any bad faith finding, and never notified Counsel that it
was considering sanctioning her personally. The court of appeals’ affirmance of
the punitive sanctions against Counsel also conflicts with controlling precedent
even if viewed as a disciplinary measure against a pro hac vice counsel. The
Northern District of California permits a presiding judge to sanction a lawyer if
“authorized by applicable law,” but forbids a judge presiding over a case to
himself discipline lawyers appearing before him. N.D. Cal. L.R. 11-6(a). The
district court rules reserve the power to discipline attorneys, including pro hac
vice attorneys, exclusively to the Court’s Standing Committee or the Chief Judge
and in accordance with stringent confidentiality and other procedures. Id. This
Court’s precedent requires district courts to comply strictly with their own local
rules. Hollingsworth v. Perry, 558 U.S. 183, 191 (2010) (“[Local] rules have ‘the
force of law.’”) “Courts enforce the requirement of procedural regularity on
others, and must follow those requirements themselves.” Id. at 184. Under these
precedents, the court of appeals’ affirmance of the sua sponte sanctions against
Counsel could not stand even as a “discipline order.”

5

3.

This case presents important questions concerning whether an

attorney admitted pro hac vice can be subjected to punitive sanctions imposed
without any due process protections, and in a manner different than other
members of that court’s bar. Attorney sanctions implicate questions of
exceptional importance because they affect a lawyer’s ability to practice and
impact reputation, which is one of the most valuable assets a lawyer has. Such
sanctions also implicate the right of a litigant to be effectively represented by its
counsel of choice.
4.

Counsel respectfully requests a 60-day extension of time, up to and

including July 8, 2019, within which to file her petition for a writ of certiorari.
The requested extension of time is warranted in order to assure the best possible
presentation of the issues in the petition to this Court and in light of Counsel’s
other professional obligations. As set forth in Loop-AI’s concurrent Application
for an extension of time, Counsel also has to prepare Loop-AI’s petition for a writ
of certiorari, which is also due on the same date. In addition, Counsel has several
other professional commitments in other matters pending in other courts. The
additional time is therefore needed to properly prepare and print the petition in
this case.
5.

The requested extension does not affect the Term in which the Court

will hear this case, if the writ is granted, and the respondents will not be
prejudiced by the granting of this application. A sixty-day extension of time,

6

from the current due date of May 8, 2019, to July 8, 2019, is therefore reasonable
under these circumstances.
6.

For all these reasons and good cause shown, it is respectfully

requested that this Application for extension of time to file a petition for a writ of
certiorari be granted.
Respectfully submitted.
/s/ Valeria Calafiore Healy
VALERIA CALAFIORE HEALY
HEALY LLC
154 Grand Street
New York, NY 10013
(212) 810-0377
In propria persona.

March 21, 2019.

7

